Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    NURSING FACILITIES’
 EMPLOYMENT OF INDIVIDUALS
 WITH CRIMINAL CONVICTIONS




                    Daniel R. Levinson
                     Inspector General

                       March 2011
                     OEI-07-09-00110
       E X E C U T I V E                                                S U M M A R Y


                               OBJECTIVE
                               To determine whether and to what extent nursing facilities employed
                               individuals with criminal convictions.


                               BACKGROUND
                               A member of Congress requested that the Office of Inspector General
                               (OIG) undertake this evaluation. Federal regulation prohibits Medicare
                               and Medicaid nursing facilities from employing individuals found guilty
                               of abusing, neglecting, or mistreating residents by a court of law, or who
                               have had a finding entered into the State nurse aide registry concerning
                               abuse, neglect, or mistreatment of residents or misappropriation of their
                               property. Interpretive guidelines from the Centers for Medicare &
                               Medicaid Services (CMS) for this regulation state that “[nursing]
                               facilities must be thorough in their investigations of the past histories of
                               individuals they are considering hiring.” However, Federal law does not
                               require that nursing facilities conduct State or Federal Bureau of
                               Investigation (FBI) criminal background checks. State background
                               check requirements vary in terms of what must be checked
                               (e.g., statewide criminal history databases, publically available sex
                               offender registries) and who must be checked (e.g., direct-care workers
                               only, all staff).

                               We selected a stratified random sample of 260 nursing facilities from
                               the universe of 15,728 Medicare-certified nursing facilities and
                               requested data on all individuals who were employed by the sampled
                               nursing facilities on June 1, 2009. To gain access to criminal history
                               record information, we entered into an Information Transfer Agreement
                               with FBI. We compared employee data with the criminal history
                               records FBI provided to identify individuals with criminal convictions
                               employed by the sampled nursing facilities.




O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   i
E X E C U T I V E                                      S U            M M A R Y




                                          Consistent with the congressional request and objective of this
                                          evaluation, we used FBI data to determine whether
                                          individuals employed by nursing facilities had criminal
                                          convictions. Federal regulation prohibits Medicare and
                                          Medicaid nursing facilities from employing individuals found
                                          guilty of abusing, neglecting, or mistreating residents by a
                                          court of law, or who have had a finding entered into the State
                                          nurse aide registry concerning abuse, neglect, or mistreatment
                                          of residents or misappropriation of their property.
                                          FBI-maintained criminal history records do not contain
                                          detailed information (i.e., they do not indicate whether the
                                          victim of a crime was a nursing facility resident) to determine
                                          whether a conviction disqualifies an individual from nursing
                                          facility employment under Federal regulation. Therefore, we
                                          did not determine whether these individuals were employed in
                                          violation of Federal regulation as that question is outside the
                                          scope of this evaluation.


                                FINDINGS
                                Almost all nursing facilities employed one or more individuals with
                                at least one criminal conviction. Our analysis of FBI-maintained
                                criminal history records revealed that 92 percent of nursing facilities
                                employed at least one individual with at least one criminal conviction.
                                Nearly half of nursing facilities employed five or more individuals with
                                at least one conviction. Forty-four percent of employees with
                                convictions were convicted of crimes against property (e.g., burglary,
                                shoplifting, writing bad checks), making it the most common type of
                                crime committed. Overall, 5 percent of nursing facility employees had
                                at least one conviction in FBI-maintained criminal history records.
                                Most convictions occurred prior to employment. Eighty-four percent of
                                employees with convictions had their most recent conviction prior to
                                their beginning date of employment.
                                Despite the lack of a Federal requirement for nursing facilities to
                                conduct criminal background checks, most States required, and/or
                                nursing facilities reported conducting, some type of background
                                check. Forty-three States required nursing facilities to conduct either
                                an FBI or a statewide criminal background check for prospective
                                employees. Some nursing facilities located in the remaining eight
                                States reported conducting criminal background checks even though



 O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   ii
E X E C U T I V E                                      S U            M M A R Y


                                they were not required to do so. All but 2 percent of nursing facilities
                                reported conducting some type of background check.


                                RECOMMENDATION
                                After completion of our data collection, the Patient Protection and
                                Affordable Care Act (P.L. 111-148) became Federal law. It requires the
                                Secretary of Health & Human Services (HHS) to carry out a nationwide
                                program for States to conduct national and statewide criminal
                                background checks for direct patient access employees of nursing
                                facilities and other providers. States may participate in this National
                                Background Check Program by entering into agreements with the
                                Secretary.

                                In light of our findings and in carrying out the mandate for HHS to
                                implement the nationwide criminal background check program, we
                                recommend that CMS:
                                Develop background check procedures. To ensure that States conduct
                                background checks consistently, CMS should (1) clearly define the
                                employee classifications that are direct patient access employees and
                                (2) work with participating States to develop a list of State and local
                                convictions that disqualify an individual from nursing facility employment
                                under the Federal regulation and periods for which each conviction bars
                                the individual from employment.


                                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                RESPONSE
                                In its written comments on the draft report, CMS agreed with our
                                recommendation. CMS stated that in its solicitation to States for the
                                National Background Check Program, the definition of “direct patient
                                access employee” is anyone who routinely comes into contact or has the
                                potential to come into contact with residents or clients, which for
                                nursing facilities should include all staff. CMS also stated that it will
                                work with the States through the National Background Check Program
                                to assist them in developing lists of convictions that disqualify
                                individuals from employment, as well as defining whether any of those
                                conviction types can be assumed to be mitigated because of the passage
                                of time and which convictions should never be considered mitigated or
                                rehabilitated.




 O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   iii
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Almost all nursing facilities employed one or more individuals
                    with at least one criminal conviction . . . . . . . . . . . . . . . . . . . . . . . 11

                    Despite the lack of a Federal requirement for nursing facilities
                    to conduct criminal background checks, most States required,
                    and/or nursing facilities reported conducting, some type of
                    background check . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    Agency Comments and Office of Inspector General Response . . . 17



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    A: Profile of Sampled Nursing Facility Employee
                       Characteristics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                    B: Profile of Sampled Nursing Facilities’ Background Check
                       Characteristics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    C: Different Types of Resources Reveal Different Information . . 20

                    D: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 21

                    E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
       I N T R O D U C T I O N



                               OBJECTIVE
                               To determine whether and to what extent nursing facilities employed
                               individuals with criminal convictions.


                               BACKGROUND
                               A member of Congress requested that the Office of Inspector General
                               (OIG) undertake this evaluation. This information has never been
                               collected nationally prior to this evaluation.
                               Federal Requirement
                               Nursing facilities participating in Medicare and Medicaid are required
                               to provide services that maintain the dignity and well-being of all
                               residents. 1, 2 Federal regulation prohibits Medicare and Medicaid
                               nursing facilities from employing individuals found guilty of abusing,
                               neglecting, or mistreating residents by a court of law. Employment of
                               individuals who have had a finding entered into the State nurse aide
                               registry 3 concerning abuse, neglect, or mistreatment of residents or
                               misappropriation of their property is also prohibited. 4 Interpretive
                               guidelines from the Centers for Medicare & Medicaid Services (CMS) for
                               this regulation state that “[nursing] facilities must be thorough in their
                               investigations of the past histories of individuals they are considering
                               hiring.” 5
                               Neither Federal law nor regulation specifically requires that nursing
                               facilities check State or Federal Bureau of Investigation (FBI) criminal
                               history records for prospective employees. Despite this, nursing
                               facilities have access to FBI criminal history records to conduct criminal
                               background checks on individuals applying for positions involving direct


                                   1 In this report, we refer to Medicare-certified skilled nursing facilities and
                               Medicaid-certified nursing facilities as “nursing facilities.”
                                   2 Social Security Act, §§ 1819(b)(2) and 1919(b)(2).
                                   3 A nurse aide is any individual providing nursing or nursing-related services to
                               residents in a nursing facility who is not a licensed health professional, a registered
                               dietitian, or someone who volunteers to provide such services without pay. Nurse aides
                               assist residents in their activities of daily living, such as bathing, dressing, eating, and
                               toileting. Sections 1819(e)(2) and 1919(e)(2) of the Social Security Act and
                               42 CFR § 483.156 require each State to establish and maintain a registry of individuals who
                               have completed training and who the State finds to be competent to function as nurse aides.
                                   4 42 CFR § 483.13(c)(1)(ii).
                                   5 CMS, State Operations Manual, Appendix PP, F225.




O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   1
I N T R O D                     U C T              I O N


                                 patient care. 6 Some States require such checks under their own
                                 authority. Sources of background check information and specific State
                                 requirements are discussed below.
                                 Sources of Background Check Information
                                 FBI criminal background checks. For FBI criminal background checks, an
                                 individual provides identifying information (usually full name, Social
                                 Security number (SSN), date of birth, race, and gender) and a set of
                                 fingerprints (electronic or rolled manually) to a State law enforcement
                                 agency. The State law enforcement agency provides the individual’s
                                 information and fingerprints to FBI to match against criminal background
                                 information maintained in its databases (e.g., the Interstate Identification
                                 Index, which is an electronic repository of criminal history record
                                 information that FBI maintains). FBI then provides the requesting law
                                 enforcement agency with a criminal history report, if one is found,
                                 containing the dates of any arrests, arresting agencies, and offenses for
                                 which the individual was charged and/or convicted. The FBI database
                                 includes information on both Federal crimes and crimes reported by
                                 States.

                                 Statewide criminal background checks. For statewide criminal
                                 background checks, an individual must provide identifying information
                                 similar to that required to conduct an FBI criminal background check,
                                 but usually is not required to submit fingerprints. This type of
                                 background check is conducted by a State law enforcement agency
                                 (e.g., State Police, Highway Patrol) and provides information similar to
                                 that in the Interstate Identification Index, but only for crimes
                                 committed within that State.

                                 Additional databases. In addition to conducting an FBI and/or statewide
                                 criminal background check, some nursing facilities search other
                                 available databases (e.g., State abuse registries, National Sex Offender
                                 Registry). Additionally, Federal regulations require all States to
                                 maintain a nurse aide registry, which nursing facilities are required to
                                 check for nurse aides. 7 The information contained in these databases
                                 may also disqualify an individual from employment in a nursing facility,
                                 but checking these databases is not a component of FBI or statewide
                                 criminal background checks.


                                   6 P.L. 105-277 § 124 (Oct. 21, 1998). Section 124 does not further define “direct patient
                                 care.”
                                     7 42 CFR § 483.75(e)(6).




 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   2
I N T R O D                     U C T              I O N


                                 State Requirements for Background Checks on Nursing Facility Employees
                                 State background check requirements vary in terms of what must be
                                 checked (e.g., statewide criminal history databases, publically available
                                 sex offender registries) and who must be checked (e.g., direct-care
                                 workers only, all staff). Ten States require an FBI criminal background
                                 check as well as a statewide check. Thirty-three States require a
                                 criminal background check in the State where the nursing facility is
                                 located. The remaining eight States do not have a background check
                                 requirement. 8 The State requirements or the lack thereof do not
                                 prohibit nursing facilities from conducting more extensive checks on
                                 their own initiative. Table 1 provides an overview of the types of
                                 criminal background checks States require.
                                 Table 1: Nursing Facility Criminal Background Check Requirements by
                                 State

                                   Type of Check                                                                                       Number of
                                                                                                                            States
                                   Required                                                                                               States

                                   FBI and Statewide                                       AK, AZ, DE, ID, MI, MS, NM, NV, NY, TN             10

                                                                                            AR, CA, DC, FL, GA, IL, IN, IA, KS, KY,
                                                                                            LA, ME, MD, MA, MN, MO, NE, NH, NJ,
                                   Statewide*                                                                                                 33
                                                                                          NC, OH, OK, OR, PA, RI, SC, TX, UT, VA,
                                                                                                                  VT, WA, WV, WI

                                   None                                                           AL, CO, CT, HI**, MT, ND, SD, WY             8

                                        Total                                                                                                 51

                                   Source: OIG Internet research and phone calls to States, 2009.

                                   *Note: Some States that require statewide checks also require nursing facilities to conduct an
                                   FBI check if the individual has not lived in the State for a minimum period of time
                                   (e.g., 5 years).
                                   **Note: A statute requiring FBI checks exists in Hawaii; however, no implementing rules have
                                   been published. A Hawaii State official confirmed that nursing facilities are not yet required to
                                   conduct such checks.


                                 State-Identified Disqualifying Conditions
                                 As discussed above, Federal regulation prohibits employing individuals
                                 who have certain types of convictions or who have certain findings
                                 entered against them in State nurse aide registries. In addition, some
                                 States have more specifically identified types of convictions that bar
                                 individuals from obtaining employment in nursing facilities. States
                                 differ in regard to what types of convictions disqualify individuals and


                                     8 This report refers to the 50 States and the District of Columbia as “States.”




 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS           3
I N T R O D                     U C T              I O N


                                 how recently a conviction must have occurred to disqualify them. For
                                 example, one State lists nine types of convictions (including murder,
                                 voluntary manslaughter, and felony battery within the previous 5 years)
                                 that bar individuals from employment at nursing facilities.

                                 Internet research and structured interviews with State staff indicate
                                 that some States allow individual nursing facilities to make decisions
                                 regarding the employability of individuals with criminal convictions,
                                 while others rely on a State agency (e.g., Department of Public Health)
                                 to make such determinations. Some States allow employees to work at
                                 nursing facilities provisionally until the results of their background
                                 checks are obtained.
                                 Legislative History Regarding Background Check Requirements
                                 The Medicare Prescription Drug, Improvement, and Modernization Act
                                 of 2003 (MMA) established a Background Check Pilot Program. 9 The
                                 purpose of the pilot program was to “identify efficient, effective, and
                                 economical procedures” for conducting State and national criminal
                                 background checks on prospective “direct patient access employees,” as
                                 defined in the statute. 10 Participating States required a
                                 fingerprint-based FBI and statewide criminal background check, as well
                                 as a search of other databases (e.g., State nurse aide registries, State
                                 sex offender registries) likely to contain disqualifying information. CMS
                                 selected seven States (Alaska, Idaho, Illinois, Michigan, Nevada, New
                                 Mexico, and Wisconsin) to participate in the pilot program, which
                                 concluded in September 2007. 11 Across the participating States,
                                 204,339 criminal background checks were initiated, of which
                                 7,463 resulted in individuals’ not being hired by a nursing facility; an
                                 additional 38,400 individuals withdrew their applications prior to
                                 completion of their criminal background checks.12
                                 On March 23, 2010, the Patient Protection and Affordable Care Act
                                 (P.L. 111-148) became Federal law. Section 6201 requires the Secretary


                                     9 P.L. 108-173, § 307.
                                     10 Section 307 of P.L. 108-173 defines a “direct patient access employee” as any
                                 individual (other than a volunteer) who has access to a patient or resident of a long-term
                                 care facility or provider through employment or through a contract with such facility or
                                 provider, as determined by a participating State for purposes of conducting the pilot
                                 program in such State. This term applies to employees checked through the pilot program.
                                     11 States’ participation in the pilot program began between 2005 and 2006.
                                     12 Abt Associates, Inc., Evaluation of the Background Check Pilot Program, August 2008,
                                 p. 207.



 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   4
I N T R O D                     U C T              I O N


                                 of Health & Human Services (Secretary) to carry out a nationwide
                                 program for States to conduct national and statewide criminal
                                 background checks for direct patient access employees of nursing
                                 facilities and other providers similar to the pilot program the MMA
                                 established. This National Background Check Program is to be
                                 conducted through means that utilize a fingerprint-based search of
                                 State and Federal criminal history records. States may participate in
                                 the nationwide program by entering into agreements with the
                                 Secretary. Grant funding will be disbursed to States in fiscal years
                                 2010 through 2012.
                                 Related Testimony and Reports
                                 In 2002, the Government Accountability Office (GAO) testified before
                                 the U.S. Senate Special Committee on Aging that sources (e.g., State
                                 nurse aide registries) used to screen prospective employees do not
                                 contain complete or up-to-date information. 13 GAO noted that some
                                 States require nursing facilities to conduct only statewide criminal
                                 background checks. Consequently, individuals who have been convicted
                                 of crimes in one State can cross State lines to obtain employment in
                                 another State.

                                 In 2005, OIG issued two reports related to the employment of nurse
                                 aides in nursing facilities nationwide. In the first report, OIG found
                                 that more than 1,500 nurse aides with substantiated findings of abuse,
                                 neglect, or misappropriation of property in 1 State had active
                                 certifications in other States. 14 In addition, 36 employees who were not
                                 nurse aides (e.g., janitors) with histories of abuse in 1 State had active
                                 certifications as nurse aides in other States. The second report found
                                 that while 85 percent of nursing facilities conducted background checks
                                 of nurse aides, half of these were limited in scope (e.g., they covered a
                                 single State). 15




                                   13 GAO, Many Shortcomings Exist in Efforts to Protect Residents from Abuse
                                 (GAO-02-448T), March 2002.
                                   14 OIG, Nurse Aide Registries: State Compliance and Practices (OEI-07-03-00380),
                                 February 2005.
                                   15 OIG, Nurse Aide Registries: Long Term Care Facility Compliance and Practices
                                 (OEI-07-04-00140), July 2005.



 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   5
I N T R O D                     U C T              I O N




                                 METHODOLOGY
                                 Scope and Limitations
                                 We reviewed FBI criminal histories of individuals employed by sampled
                                 nursing facilities on June 1, 2009. We did not determine the criminal
                                 histories of individuals employed in other types of long-term care
                                 settings (e.g., hospice) or nursing facility residents. Additionally, we did
                                 not seek to determine the effectiveness of conducting criminal
                                 background checks as an employment screening tool for nursing facility
                                 employees.

                                 Our estimate of the number of nursing facility employees with criminal
                                 convictions relies entirely upon the accuracy of the information
                                 contained in FBI’s Interstate Identification Index. Because the
                                 Interstate Identification Index relies on local, State, and Federal law
                                 enforcement agencies to report criminal records, it is possible that not
                                 all criminal history record information was accurate and up-to-date.

                                 The criminal history record information we received from FBI suggested
                                 that the records did not contain all of the convictions for particular
                                 employees. For example, criminal history record information contained
                                 notations of probation violations (suggesting that a conviction occurred),
                                 but the record did not contain the convictions leading to the imposition
                                 of probation periods. In addition, many charges had no corresponding
                                 disposition information (e.g., conviction, dismissal), so we could not
                                 determine whether a conviction occurred. Finally, it is possible that
                                 some individuals’ records did not contain convictions because they were
                                 removed following a judicial diversion program (e.g., completion of an
                                 alcohol and substance abuse education course).

                                 Our estimates are conservative because we did not include criminal
                                 convictions if we could not conclusively identify the individual (e.g., if
                                 identifiers were similar but did not exactly match). Also, we could not
                                 confirm that the information that nursing facilities provided us was
                                 accurate or that the information the employees provided to the nursing
                                 facilities was accurate.

                                 FBI-maintained criminal history records do not contain detailed
                                 information (i.e., whether the victim of a crime was a nursing facility
                                 resident) to determine whether a conviction disqualifies an individual
                                 from nursing facility employment under Federal regulation. Therefore,
                                 we limited our use of the FBI data, consistent with the congressional
                                 request, to determining whether individuals employed by nursing

 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   6
I N T R O D                     U C T              I O N


                                 facilities had criminal convictions, but we did not determine whether
                                 these individuals were employed in violation of Federal regulation.

                                 Finally, the Information Transfer Agreement 16 entered into by FBI and
                                 OIG stipulates that identifying information contained in FBI records
                                 shall be used only for research and statistical purposes. Therefore, we
                                 were prohibited from recontacting nursing facilities to further inquire
                                 about the background checks they conducted on specific individuals. In
                                 addition, the Information Transfer Agreement prohibits OIG from
                                 releasing information that may be used to identify individuals or
                                 nursing facilities associated with this evaluation.
                                 Sample and Data Sources
                                 We selected a stratified random sample from the universe of
                                 15,728 nursing facilities contained in the Online Survey, Certification,
                                 and Reporting (OSCAR) database as of February 10, 2009. To produce
                                 nationwide estimates of the number and percentage of nursing facilities
                                 employing individuals with criminal convictions, we selected a sample of
                                 260 nursing facilities from 3 strata as shown in Table 2.
                                 Table 2: Nursing Facility Population and Sample Size

                                   Stratum Definition                                                           Population Size        Sample Size

                                   Nursing facilities from States that require FBI
                                                                                                                              1,987            110
                                   and statewide checks

                                   Nursing facilities from States that require
                                                                                                                             12,687            110
                                   statewide checks

                                   Nursing facilities from States that have no
                                                                                                                              1,054             40
                                   background check requirement

                                        Total                                                                                15,728            260

                                   Source: OSCAR database, February 10, 2009.



                                 We chose to stratify based on State background check requirements in
                                 an effort to determine whether differing requirements played a role in
                                 nursing facility employment of individuals with criminal convictions.
                                 We did not identify an effect that might be explained by a number of
                                 factors (e.g., checks conducted by nursing facilities in addition to those
                                 that their States require, differences among States regarding the



                                    16 An Information Transfer Agreement governs the terms of OIG’s access to FBI criminal
                                 history records for research purposes.



 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS             7
I N T R O D                     U C T              I O N


                                 circumstances that prohibit individuals from working in nursing
                                 facilities).
                                 Data Collection
                                 Employee data. From each of the 260 sampled nursing facilities, we
                                 requested information for all noncontract individuals who were
                                 employed on June 1, 2009. 17 We requested each employee’s full name,
                                 SSN, date of birth, race, gender, beginning date of employment, and job
                                 classification. We also requested whether each individual was
                                 considered a direct-care employee. 18 Four nursing facilities did not
                                 respond to our request because they were no longer operating; therefore,
                                 we received data for 35,286 employees from 256 nursing facilities. 19 See
                                 Appendix A for a profile of sampled nursing facility employee
                                 characteristics.

                                 To assess whether a nursing facility provided us with information for all
                                 of its employees, we compared the number of employees submitted to us
                                 with the total number of employees listed in the OSCAR database for
                                 that facility. We contacted four nursing facilities that provided
                                 information for +/- 25 percent of the number of employees as listed in
                                 OSCAR to determine whether the information provided correctly
                                 answered our request. We requested and received revised employee
                                 data from these four facilities; however, given routine staffing
                                 fluctuations, we did not question the accuracy of employee data that
                                 closely approximated the number of employees listed in OSCAR.

                                 Mail survey. We sent the administrator of each of the sampled nursing
                                 facilities a survey about background check procedures. The survey
                                 included questions about the types of background checks they
                                 conducted, when the nursing facilities began conducting background
                                 checks, what the costs of conducting background checks were, and what
                                 job classifications they considered direct care. We received completed



                                   17 We did not request identifying information for individuals who provide services for a

                                 nursing facility through a staffing agency (e.g., contract employees). Generally, for States
                                 that require criminal background checks, staffing agencies, not the nursing facilities, are
                                 responsible for conducting checks and making decisions about employment for contract
                                 employees.
                                     18 Sampled nursing facilities differed on what job classifications constituted direct-care
                                 staff.
                                     19 Nursing facilities provided information on 46 individuals who were employed in
                                 2 different sampled nursing facilities as of June 1, 2009. Therefore, we collected data on
                                 35,240 unique individuals.



 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   8
I N T R O D                     U C T              I O N


                                 surveys from all 256 nursing facilities. See Appendix B for a profile of
                                 sampled nursing facilities’ reported background check characteristics.

                                 Criminal history records. To gain access to criminal history record
                                 information, we entered into an Information Transfer Agreement with
                                 FBI. We provided the employee data obtained from nursing facilities to
                                 FBI. FBI performed a name-based match with the Interstate
                                 Identification Index. Of the 35,286 names we provided, we received the
                                 criminal history record information for approximately
                                 11,200 individuals who closely matched the names we provided. 20
                                 Because FBI uses an algorithm to conduct name-based searches, we
                                 received multiple matches for some of the searches, especially for
                                 individuals with common names.
                                 Analysis
                                 Employee data and criminal history records. Using the SSN, date of birth,
                                 race, and gender identifiers, we further examined the matches FBI
                                 provided to identify the individuals employed by the nursing facilities.
                                 We determined that approximately 4,400 individuals matched the
                                 identifiers of the individuals employed by sampled nursing facilities. 21
                                 We analyzed the information to identify individuals with criminal
                                 convictions employed by the sampled nursing facilities. Using six broad
                                 categories of offenses, we recorded convictions for each positively
                                 matched individual’s criminal history. 22 Following are examples of
                                 specific offenses included in each broad category; these lists do not
                                 include every specific offense we found in each of the six categories:

                                        crimes against persons: assault, battery, murder, rape, robbery;

                                        crimes against property: burglary, larceny, possession of stolen
                                         property, shoplifting, theft, vandalism, writing bad checks;

                                        driving under the influence of drugs or alcohol (DUI): driving under
                                         the influence, driving while intoxicated;




                                     20 FBI did not provide any matches for approximately 24,000 individuals; therefore, we

                                 did not perform further analysis on these individuals.
                                     21 The identifiers of the other approximately 6,800 individuals did not match the
                                 identifiers of the sampled nursing facility employees (e.g., different date of birth, different
                                 SSN).
                                    22 We consulted FBI definitions of “crime” to assist us in categorizing offenses. Accessed
                                 at http://www.fbi.gov/ucr/ on August 14, 2009.



 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   9
I N T R O D                     U C T              I O N


                                        driving-related crimes (other than DUI): leaving the scene of an
                                         accident, transporting an open container of alcohol in a vehicle;

                                        drug-related crimes: possession of drugs or paraphernalia, sale of
                                         controlled substances; and

                                        other: disorderly conduct, prostitution, resisting arrest, weapons
                                         violations.

                                 Sex offender registries. The criminal history record information
                                 provided by FBI indicated that a few nursing facility employees were
                                 registered as sexual offenders. Because additional information is
                                 readily available on sexual offenses, we examined Federal and State sex
                                 offender registries for these employees. 23 The examination of these
                                 registries demonstrated how such checks can provide additional
                                 information to complement a criminal background check. See
                                 Appendix C for the results of our review.
                                 Standards
                                 This study was conducted in accordance with the Quality Standards for
                                 Inspection and Evaluation approved by the Council of the Inspectors
                                 General on Integrity and Efficiency.




                                     23 Most other types of offenses (e.g., drug-related crimes) do not have similar registries.




 O E I - 0 7 - 0 9 - 0 0 11 0    N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   10
              F I N D I N G S


                                            Consistent with a congressional request, the objective of this
                                            evaluation is to determine whether and to what extent
                                            nursing facilities employed individuals with criminal
                                            convictions. Federal regulation prohibits Medicare and
                                            Medicaid nursing facilities from employing individuals found
                                            guilty of abusing, neglecting, or mistreating residents by a
                                            court of law, or who have had a finding entered into the
                                            State nurse aide registry concerning abuse, neglect, or
                                            mistreatment of residents or misappropriation of their
                                            property. FBI-maintained criminal history records do not
                                            contain detailed information (i.e., they do not indicate
                                            whether the victim of a crime was a nursing facility resident)
                                            to determine whether a conviction disqualifies an individual
                                            from nursing facility employment under Federal regulation.
                                            Therefore, we used the FBI data to determine whether
                                            individuals employed by nursing facilities had criminal
                                            convictions. We did not determine whether these individuals
                                            were employed in violation of Federal regulation as that
                                            question is outside the scope of this evaluation.



Almost all nursing facilities employed one or more                         Our analysis of FBI-maintained
  individuals with at least one criminal conviction                        criminal history records revealed
                                                                           that 92 percent of nursing facilities
                                      employed at least one individual with at least one criminal conviction. 24
                                      The number of individuals with at least 1 conviction employed by these
                                      nursing facilities ranged from 1 to 66.
                                      Nearly half of nursing facilities employed five or more individuals with
                                      at least one conviction. For example, a nursing facility with a total of
                                      164 employees had 34 employees with at least 1 conviction each. These
                                      34 individuals had 102 total convictions categorized as follows:
                                      29 convictions for crimes categorized as other, 25 convictions for crimes
                                      against property, 18 drug-related convictions, 16 convictions for crimes
                                      against persons, 8 convictions for DUI, and 6 driving-related
                                      convictions. Table 3 shows the percentages of nursing facilities that
                                      employed various percentages of employees with convictions.




                                         24 Appendix D presents the point estimates and confidence intervals for all population
                                      estimates.



       O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   11
F    I N D I N G                     S


                                   Table 3: Percentage of Nursing Facilities That Employed Various
                                   Percentages of Employees With Criminal Convictions

                                     Percentage of Employees With Criminal                                                             Percentage of
                                     Convictions                                                                                    Nursing Facilities

                                     None                                                                                                          7.7%

                                     Up to 5.0%                                                                                                    51.8%

                                     Greater than 5.0% to 10.0%                                                                                    26.0%

                                     Greater than 10.0% to 15.0%                                                                                   6.3%

                                     Greater than 15.0% to 20.0%                                                                                   5.7%

                                     Greater than 20.0% to 25.0%                                                                                   2.5%

                                          Total                                                                                                 100.0%

                                     Source: OIG analysis of FBI criminal history records and nursing facility employee data, 2009.



                                   The most common criminal conviction was for crimes against property
                                   Among employees with criminal convictions, the most common criminal
                                   conviction was for crimes against property, such as burglary,
                                   shoplifting, and writing bad checks (44 percent). Table 4 shows the
                                   categories of crimes for which nursing facility employees were convicted.
                                   Table 4: Categories of Crimes for Which Nursing Facility Employees
                                   Were Convicted

                                                                                                                  Percentage of Employees
                                     Category of Crime
                                                                                                                  With Criminal Convictions
                                     Crimes against property                                                                              43.6%*

                                     Other                                                                                                 26.4%

                                     DUI                                                                                                   20.3%

                                     Drug-related crimes                                                                                   16.2%

                                     Crimes against persons                                                                                13.1%

                                     Driving-related crimes other than DUI                                                                 11.9%

                                     Source: OIG analysis of FBI criminal history records and nursing facility employee
                                     data, 2009.

                                     Percentages do not sum to 100 percent because some employees had criminal
                                     convictions of more than one category.

                                     *The percentage of employees with property convictions was statistically higher than all
                                     the other categories at the 95-percent confidence level.




    O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS               12
F    I N D I N G                     S


                                   Five percent of nursing facility employees had at least one criminal
                                   conviction
                                   Overall, 5 percent of nursing facility employees had at least one
                                   conviction in FBI-maintained criminal history records. Employees with
                                   at least one conviction in their criminal history records averaged
                                   two convictions per employee. The number of criminal convictions per
                                   employee in our sample ranged from 1 to 110.

                                   Five percent of staff identified by the nursing facilities as direct-care
                                   employees had criminal convictions, which mirrors the conviction rate
                                   for nursing facility staff in general. The term “direct-care staff”
                                   encompasses many job classifications (e.g., nurses, nurse aides).
                                   Sampled nursing facilities differed on what job classifications
                                   constituted direct-care staff. In addition to reporting which of their
                                   employees they consider direct-care staff, nursing facilities reported the
                                   job classifications of all of their employees. Table 5 shows the
                                   percentage of employees with certain job classifications who had
                                   convictions.
                                   Table 5: Nursing Facility Employees With Certain Job Classifications
                                   Who Had Convictions

                                                                                                                                          Percentage of
                                                                                                                                         Employees With
                                     Job Classification
                                                                                                                                            Convictions
                                     Housekeeping/laundry/maintenance/security                                                                     6.5%

                                     Certified nursing and medication aides                                                                        6.4%

                                     Dietary                                                                                                       5.7%

                                     Nursing (e.g., registered and licensed practical nurses)                                                      3.6%

                                     All other                                                                                                     2.7%

                                     Administration                                                                                                2.6%

                                     Source: OIG analysis of FBI criminal history records and nursing facility employee data, 2009.



                                   Most criminal convictions occurred prior to employment
                                   Eighty-four percent of employees with criminal convictions had their
                                   most recent conviction prior to their beginning date of employment. Of
                                   the employees with criminal convictions prior to the beginning date of
                                   employment, 38 percent had their most recent conviction 10 or more
                                   years prior to employment. For example, 1 individual employed since
                                   2005 had 13 convictions for crimes against property, the last of which
                                   was in 1988. No further convictions appeared in this employee’s


    O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS               13
F    I N D I N G                     S


                                   criminal history record. Table 6 shows the elapsed time between an
                                   employee’s most recent conviction before his or her beginning date of
                                   employment.
                                   Table 6: Elapsed Time Between Employee’s Most Recent Conviction
                                   Before Beginning Date of Employment

                                                                                                                   Percentage of Employees
                                     Elapsed Time Before Beginning
                                                                                                                   With Convictions Prior to
                                     Date of Employment
                                                                                                                               Employment
                                     Less than 1 year                                                                                     7.5%

                                     1 year to less than 5 years                                                                         28.6%

                                     5 years to less than 10 years                                                                       26.1%

                                     10 years or more                                                                                    37.8%

                                          Total                                                                                          100.0%

                                     Source: OIG analysis of FBI criminal history records and nursing facility employee
                                     data, 2009.



                                   Sixteen percent of employees with convictions had their most recent
                                   conviction after their beginning date of employment. For example, one
                                   individual employed since January 2009 in a nursing facility
                                   housekeeping department was convicted of assault in July 2009. The
                                   individual pleaded guilty to the charge and was sentenced to 2 years’
                                   probation and 60 hours of community service. Another individual
                                   employed in a nursing facility maintenance department since 1978 had
                                   no convictions listed in the criminal history record until 1991. The
                                   individual’s criminal history record listed a total of five convictions (two
                                   for drug-related crimes and three for DUI), all of which occurred after
                                   the beginning date of employment. A nursing facility would need to
                                   conduct periodic criminal background checks to identify these
                                   convictions. Table 7 shows the elapsed time between an employee’s
                                   beginning date of employment and his or her most recent conviction.




    O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS            14
F    I N D I N G                     S


                                   Table 7: Elapsed Time Between Employee’s Beginning Date of
                                   Employment and Most Recent Conviction

                                                                                                                   Percentage of Employees With
                                     Elapsed Time After Beginning Date
                                                                                                                     Convictions After Beginning
                                     of Employment
                                                                                                                             Date of Employment
                                     Less than 6 months                                                                                    15.8%

                                     6 months to less than 1 year                                                                          10.7%

                                     1 year to less than 2 years                                                                           22.4%

                                     2 years to less than 5 years                                                                          23.3%

                                     5 years to less than 10 years                                                                         14.9%

                                     10 years or more                                                                                      12.8%

                                          Total                                                                                           100.0%*

                                     Source: OIG analysis of FBI criminal history records and nursing facility employee data, 2009.
                                     *Percentages do not sum to 100 percent because of rounding.



                                                                          Forty-three States required
      Despite the lack of a Federal requirement for
                                                                          nursing facilities to conduct
             nursing facilities to conduct criminal
                                                                          either an FBI or a statewide
       background checks, most States required,                           criminal background check for
     and/or nursing facilities reported conducting,                       prospective employees. Ten
                   some type of background check                          States required FBI criminal
                                                                          background checks and
                                   33 States required statewide criminal background checks.
                                   Some nursing facilities located in the remaining eight States reported
                                   conducting criminal background checks even though they were not
                                   required to do so. All but 2 percent of nursing facilities reported
                                   conducting some type of background check. 25 The most common type of
                                   background check nursing facilities reported conducting was a
                                   statewide criminal background check, followed by other types of checks
                                   (e.g., State abuse registries, State nurse aide registries) and then FBI
                                   criminal background checks. 26 Half of nursing facilities reported using



                                       25 These nursing facilities were located in two States; one State required nursing
                                   facilities to conduct statewide criminal background checks and the other State had no
                                   requirements for conducting criminal background checks.
                                       26 Difference was statistically significant at the 95-percent confidence level. The
                                   percentage of nursing facilities that reported conducting each type of check and the results
                                   of the difference tests are available in Appendix D.



    O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS        15
F    I N D I N G                     S


                                   other sources for background checks, such as State-specific abuse or sex
                                   offender registries and private agencies.
                                   Administrators for 94 percent of nursing facilities that conduct
                                   background checks reported conducting them on all classifications of
                                   employees. Another 4 percent reported conducting background checks
                                   only on direct-care staff. 27 However, sampled nursing facilities differed
                                   on what job classifications constituted direct-care staff. For example,
                                   14 nursing facilities considered all employees in the nursing facilities to
                                   be direct care (i.e., having the potential of direct access to residents),
                                   while other nursing facilities limited the definition to discrete job
                                   classifications (e.g., nurses, therapists, and activity workers).




                                       27 The remaining facilities did not answer this question.




    O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   16
       R E C O M M E N D A T I O N




                               After completion of our data collection, the Patient Protection and
                               Affordable Care Act (P.L. 111-148) became Federal law. It requires the
                               Secretary to carry out a nationwide program for States to conduct
                               national and statewide criminal background checks for direct patient
                               access employees of nursing facilities and other providers similar to the
                               pilot program MMA established. The program is being carried out in
                               fiscal years 2010 through 2012. Public Law 111-148 also requires OIG
                               to review the nationwide program and submit a report to Congress no
                               later than 180 days after the completion of the nationwide program.

                               In light of our findings and in carrying out the mandate for the
                               Department of Health & Human Services to implement the nationwide
                               criminal background check program, we recommend that CMS:
                               Develop background check procedures
                               To ensure that States conduct background checks consistently, CMS
                               should (1) clearly define the employee classifications that are direct
                               patient access employees and (2) work with participating States to
                               develop a list of State and local convictions that disqualify an individual
                               from nursing facility employment under the Federal regulation and
                               periods for which each conviction bars the individual from employment.


                               AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                               RESPONSE
                               In its written comments on the draft report, CMS agreed with our
                               recommendation to develop background check procedures. CMS stated
                               that in its solicitation to States for the National Background Check
                               Program, the definition of “direct patient access employee” is anyone
                               who routinely comes into contact or has the potential to come into
                               contact with residents or clients. For nursing facilities, this definition
                               should include all staff.

                               CMS also stated that it will work with the States through the National
                               Background Check Program to assist them in developing lists of
                               convictions that disqualify individuals from employment, as well as
                               defining whether any of those conviction types can be assumed to be
                               mitigated because of the passage of time and which convictions should
                               never be considered mitigated or rehabilitated. We did not make any
                               changes to the report based on CMS’s comments. The full text of CMS’s
                               comments on the draft report can be found in Appendix E.

O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   17
                A P P E N D I X                                                  ~             A
 Table A-1: Profile of Sampled Nursing Facility Employee Characteristics

                                                                                                                                Number of
                                                                                                                                                     Percentage of
Characteristic                          Subgroup                                                                                Employees
                                                                                                                                                       Employees
                                                                                                                                 (n=35,286)
                                        Certified nursing and medication aides                                                          12,456                 35.3%
                                        Nursing (e.g., registered and licensed practical nurses)                                         6,986                 19.8%
                                        Dietary                                                                                          3,866                 11.0%
                                        Housekeeping/laundry/maintenance/security                                                        3,814                 10.8%
                                        Administration                                                                                   3,584                 10.2%
                                        Supervisory nursing                                                                              1,090                  3.1%
                                        Hospitality/activities/chaplains                                                                 1,018                  2.9%
Job Classification
                                        Therapists                                                                                         866                  2.5%
                                        Aides not otherwise specified                                                                      677                  1.9%
                                        Social workers                                                                                     466                  1.3%
                                        Other clinical personnel                                                                           258                  0.7%
                                        Other                                                                                               79                  0.2%
                                        Transportation                                                                                      81                  0.2%
                                        Beauticians                                                                                         45                  0.1%
                                        Male                                                                                             5,171                 14.7%
Gender                                  Female                                                                                          29,893                 84.7%
                                        Not specified                                                                                      222                  0.6%
                                        Under 21                                                                                         1,926                  5.5%
                                        21–30                                                                                            7,065                 20.0%
                                        31–40                                                                                            7,274                 20.6%
Age on June 1, 2009                     41–50                                                                                            8,520                 24.1%
                                        51–60                                                                                            7,434                 21.1%
                                        Over 60                                                                                          3,066                  8.7%
                                        Not specified                                                                                         1        Less than 0.1%
                                        White                                                                                           19,412                 55.0%
                                        Black or African American                                                                        8,791                 24.9%
Race                                    Hispanic                                                                                         2,777                  7.9%
                                        Asian                                                                                            1,383                  3.9%
                                        Other or not specified                                                                           2,923                  8.3%
                                        Yes                                                                                             24,605                 69.7%
Direct-Care Employee                    No                                                                                              10,677                 30.3%
                                        Not specified                                                                                         4        Less than 0.1%
                                        0 to 2 years                                                                                    15,047                 42.6%
                                        Greater than 2 to 5 years                                                                        7,818                 22.2%
                                        Greater than 5 to 8 years                                                                        3,816                 10.8%
Length of Employment                    Greater than 8 to 10 years                                                                       1,780                  5.0%
on June 1, 2009                         Greater than 10 to 15 years                                                                      2,761                  7.8%
                                        Greater than 15 to 20 years                                                                      1,841                  5.2%
                                        Greater than 20 years                                                                            2,220                  6.3%
                                        Not specified                                                                                         3        Less than 0.1%
Source: Office of Inspector General analysis of nursing facility employee data, 2009.
Subgroups for some characteristics may not sum to 100 percent because of rounding.


         O E I - 0 7 - 0 9 - 0 0 11 0          N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS                 18
              A P P E N D I X                                                ~             B
Table B-1: Profile of Sampled Nursing Facilities’ Reported Background Check Characteristics

                                                                                                                                Number of
                                                                                                                                                 Percentage
                                                                                                                                 Sampled
                                                                                                                                                 of Sampled
 Characteristic                       Subgroup                                                                                    Nursing
                                                                                                                                                     Nursing
                                                                                                                                 Facilities
                                                                                                                                                    Facilities
                                                                                                                                  (n=252)
                                      1988–1999                                                                                            93           36.9%

 Year Nursing Facility                2000–2004                                                                                            59           23.4%
 Began Conducting                     2005–2008                                                                                            49           19.4%
 Background Checks
                                      Since establishment of the nursing facility                                                          24            9.5%
                                      Unknown/not specified                                                                                27           10.7%
                                      $0                                                                                                   33           13.1%
 2008 Total Costs for                 Less than $1,000                                                                                     50           19.8%
 Background Checks                    $1,000 to less than $5,000                                                                          112           44.4%
                                      $5,000 to less than $10,000                                                                          22            8.7%
                                      $10,000 to less than $15,000                                                                          6            2.4%
 Range: $0–$29,565
                                      $15,000 or more                                                                                       5            2.0%
 Average: $2,781
                                      Unknown/not specified                                                                                24            9.5%
                                      $0                                                                                                   33           13.1%
 2008 Cost Per                        Less than $25                                                                                        89           35.3%
 Background Check                     $25 to less than $50                                                                                 44           17.5%
                                      $50 to less than $75                                                                                 33           13.1%
 Range: $0–$190.08                    More than $75                                                                                        41           16.3%
 Average: $37.15                      Unknown/not specified                                                                                12            4.8%
 Source: Office of Inspector General analysis of nursing facility survey responses, 2009.
 Percentages do not sum to 100 percent because of rounding.




       O E I - 0 7 - 0 9 - 0 0 11 0        N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS               19
F    I N D I N G                     S
           A P P E N D I X                                           ~             C
                                   Different Types of Resources Reveal Different Information
                                   In our analysis of the Federal Bureau of Investigation (FBI) criminal
                                   history records, we identified seven individuals employed in five
                                   sampled nursing facilities whose criminal history records indicated that
                                   they are currently registered as sex offenders. We chose to examine
                                   Federal and State sex offender registries to see what additional
                                   information these registries might contain about these employees and
                                   how additional checks might complement a criminal background check.
                                   Conducting name searches on the National Sex Offender Registry (a
                                   public Web site) positively identified only four of the seven individuals
                                   as sex offenders. 28 Conducting name searches on Web sites for
                                   individual State sex offender registries yielded six of the seven
                                   individuals’ names.

                                   There was one name that FBI criminal history records identified as a
                                   sex offender that we could not identify on the national or relevant State
                                   sex offender registries. The criminal history record showed a
                                   February 2009 registration as a sex offender with the sheriff’s
                                   department located in the county in which the employing nursing
                                   facility was located. We were unable to verify this information with
                                   another source because the Web site for the sheriff’s department did not
                                   offer the ability to search its sex offender registry.

                                   Upon closer examination of two individuals whose FBI criminal history
                                   records indicated “Subject of record is a registered sexual offender,” the
                                   individuals’ names were included on a list found on a Web site
                                   maintained by their State Office of Attorney General. The title of the
                                   list was “Convicted Sex Offenders and Offenders Against Children.”
                                   For both individuals, the information indicated that they were
                                   “registered offenders against children” and not “registered sexual
                                   offenders.” The description key of the list indicated that the two
                                   individuals were “offenders against children, who have not yet
                                   committed a sexually-related offense.”

                                   The results of this analysis demonstrate that searches of different
                                   sources of background check information may produce different criminal
                                   history information.




                                     28 The Dru Sjodin National Sex Offender Public Web site can be accessed at
                                   http://www.nsopw.gov.



    O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   20
                A P P E N D I X                                           ~             D
Table D-1: Point Estimates and Confidence Intervals
                                                                                                                                                 95-Percent
                                                                                                           Sample
Estimate Characteristic                                                                                                 Point Estimate           Confidence
                                                                                                             Size
                                                                                                                                                    Interval

Estimates of nursing facilities that employ individuals with convictions

Percentage of nursing facilities that employ one or more
                                                                                                                 256                   92.3           87.0–95.6
individuals with at least one conviction

Percentage of nursing facilities that employ five or more
                                                                                                                 256                   47.8           40.1–55.5
individuals with at least one conviction

Estimates of nursing facilities whose employees include certain percentages of individuals with convictions

Percentage of nursing facilities with 0 percent of employees with
                                                                                                                 256                    7.7            4.5–13.0
convictions

Percentage of nursing facilities with up to 5 percent of employees
                                                                                                                 256                   51.8           44.0–59.5
with convictions

Percentage of nursing facilities with more than 5 and up to
                                                                                                                 256                   26.0           19.8–33.4
10 percent of employees with convictions

Percentage of nursing facilities with more than 10 and up to
                                                                                                                 256                    6.3            3.5–11.0
15 percent of employees with convictions

Percentage of nursing facilities with more than 15 and up to
                                                                                                                 256                    5.7            2.9–10.9
20 percent of employees with convictions

Percentage of nursing facilities with more than 20 and up to
                                                                                                                 256                    2.5             0.9–6.8
25 percent of employees with convictions

Estimates of nursing facility employees with one or more convictions

Percentage of nursing facility employees with crimes against
                                                                                                                1,772                  43.6           39.5–47.7
property

Percentage of nursing facility employees with other crimes                                                      1,772                  26.4           23.7–29.4

Percentage of nursing facility employees with driving under the
                                                                                                                1,772                  20.3           17.6–23.2
influence of drugs or alcohol (DUI) crimes

Percentage of nursing facility employees with drug-related crimes                                               1,772                  16.2           13.7–19.0

Percentage of nursing facility employees with crimes against
                                                                                                                1,772                  13.1           11.2–15.4
persons

Percentage of nursing facility employees with driving-related
                                                                                                                1,772                  11.9            9.9–14.3
crimes other than DUI

                                                                                                                                          continued on next page




           O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS                 21
    A    P      P E N D                I X             ~            D


Table D-1: Point Estimates and Confidence Intervals (Continued)

                                                                                                                                              95-Percent
                                                                                                          Sample                Point
Estimate Characteristic                                                                                                                       Confidence
                                                                                                            Size             Estimate
                                                                                                                                                 Interval
Estimates of nursing facility employees with convictions in certain job classifications

Nursing facility employees that have at least one conviction                                                 35,286                   4.9            4.2–5.9


Percentage of direct-care staff with convictions                                                             24,605                   5.1            4.2–6.3

Percentage of housekeeping/laundry/maintenance/security staff
                                                                                                               3,814                  6.5          5.38–7.81
with convictions

Percentage of certified nursing and medication aides with
                                                                                                             12,456                   6.4            5.1–8.0
convictions

Percentage of dietary staff with convictions                                                                   3,866                  5.7            4.7–7.0

Percentage of nursing staff (e.g., registered and licensed practical
                                                                                                               6,986                  3.6            2.8–4.7
nurses) with convictions

Percentage of all other types of staff with convictions                                                        4,581                  2.7            2.1–3.5

Percentage of administrative staff with convictions                                                            3,584                  2.6            1.9–3.6

Estimates of nursing facility employees whose most recent conviction was prior to employment

Percentage of nursing facility employees with convictions who
have their most recent conviction prior to the beginning date of                                               1,772                 84.0          80.4–87.0
employment

Percentage whose most recent conviction was less than 1 year
                                                                                                               1,498                  7.5            5.8–9.8
prior to beginning employment

Percentage whose most recent conviction was more than 1 year
                                                                                                               1,498                 28.6          25.0–32.5
but less than 5 years prior to beginning employment

Percentage whose most recent conviction was more than 5 years
                                                                                                               1,498                 26.1          21.7–31.0
but less than 10 years prior to beginning employment

Percentage whose most recent conviction was more than 10 years
                                                                                                               1,498                 37.8          33.8–42.0
prior to beginning employment

                                                                                                                                       continued on next page




        O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS                 22
  A    P      P E N D                I X             ~            D


Table D-1: Point Estimates and Confidence Intervals (Continued)

                                                                                                                                           95-Percent
                                                                                                     Sample                Point
 Estimate Characteristic                                                                                                                   Confidence
                                                                                                       Size             Estimate
                                                                                                                                              Interval

 Estimates of nursing facility employees whose most recent conviction was after beginning employment

 Percentage of nursing facility employees with convictions
 whose most recent conviction was after beginning                                                         1,772                 16.0          13.0–19.6
 employment

 Percentage whose most recent conviction was less than
                                                                                                           274                  15.8          10.9–22.4
 6 months after beginning employment

 Percentage whose most recent conviction was more than
                                                                                                           274                  10.7           7.0–16.0
 6 months but less than 1 year after beginning employment


 Percentage whose most recent conviction was more than
                                                                                                           274                  22.4          16.1–30.1
 1 year but less than 2 years after beginning employment


 Percentage whose most recent conviction was more than
                                                                                                           274                  23.3          19.0–28.2
 2 years but less than 5 years after beginning employment


 Percentage whose most recent conviction was more than
                                                                                                           274                  14.9          10.6–20.7
 5 years but less than 10 years after beginning employment


 Percentage whose most recent conviction was more than
                                                                                                           274                  12.8           8.0–20.0
 10 years after beginning employment

 Estimates of nursing facilities that conduct different types of background checks

 Percentage of nursing facilities that do not conduct any
                                                                                                           256                   2.4            0.8–6.8
 type of background check

 Percentage of nursing facilities that reported conducting
                                                                                                           256                  87.4          81.6–91.6
 Statewide criminal history checks

 Percentage of nursing facilities that reported using other
                                                                                                           256                  50.8          43.1–58.6
 sources for background checks

 Percentage of nursing facilities that reported conducting
                                                                                                           256                  23.5          18.0–30.0
 FBI criminal history checks

 Percentage of nursing facilities that conduct background
                                                                                                           256                  93.7          88.9–96.5
 checks on all employees

 Percentage of nursing facilities that conduct background
                                                                                                           256                   3.9            2.0–7.6
 checks only on direct-care employees

 Source: Office of Inspector General (OIG) analysis of Federal Bureau of Investigation (FBI) criminal history records and
 nursing facility employee data, 2009.




      O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS                  23
      A     P      P E N D                I X             ~            D


Table D-2: Point Estimates and Confidence Intervals for Differences in Categories of Convictions


                                             Percentage of                                                                       95-Percent
Category of                                                                                        Percentage
                                            Employees With                                                               Confidence Interval           p-value
Conviction                                                                                          Difference
                                               Convictions                                                                     on Difference

Property                                                                  43.6
                                                                                                               17.1                      10.6–23.7      <0.0001
Other                                                                     26.4

Property                                                                  43.6
                                                                                                               23.3                      15.4–31.2      <0.0001
DUI                                                                       20.3

Property                                                                  43.6
                                                                                                               27.4                      21.0–33.8      <0.0001
Drugs                                                                     16.2

Property                                                                  43.6
                                                                                                               30.4                      23.8–37.0      <0.0001
Persons                                                                   13.1

Property                                                                  43.6
                                                                                                               31.6                      25.5–37.8      <0.0001
Other driving (not DUI)                                                   11.9

Confidence intervals and p-values are reported for each single comparison. Applying a Bonferroni threshold of 0.05/5,
differences for all five simultaneous comparisons are statistically significant at the 95-percent confidence level.

Source: OIG analysis of FBI criminal history records and nursing facility employee data, 2009.



Table D-3: Point Estimates and Confidence Intervals for Differences in Type of Check Conducted


                                              Percentage of                                                                        95-Percent
Type of                                                                                                 Percentage
                                           Nursing Facilities                                                              Confidence Interval         p-value
Background Check                                                                                         Difference
                                          Conducting Check                                                                       on Difference

Statewide*                                                                 87.4
                                                                                                                  36.6                     27.1–46.1    <0.0001
Using other source                                                         50.8

Statewide                                                                  87.4
                                                                                                                  64.0                     56.5–71.4    <0.0001
FBI                                                                        23.5

Using other source                                                         50.8
                                                                                                                  27.4                     17.0–37.7    <0.0001
FBI                                                                        23.5

*Confidence intervals and p-values are reported for each single comparison. Applying a Bonferroni threshold of 0.05/3,
differences for all three simultaneous comparisons are statistically significant at the 95-percent confidence level.

Source: OIG analysis of nursing facility survey responses, 2009.




           O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS                24
                          A P PEN D                       x              E


AGENCY COMMENTS


     .,..,.'·''''«''4;'             .

 (            ~               DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers lor Medicare & Medicaid ServIces

     ,"5'r                                                                                             200 Independence Avenue SW
                                                                                                       Wasl1lnglon, DC 20201




                      DATE:               JAN 1 2 1.011
                      TO: 	             Daniel R. Levinson
                                        Inspector General

                      FROM: 	           Donald M. Berwick, M.D.
                                        Administrator

                      SUBJECT: 	 Office ofInspector General (OlG) Draft Report: ''Nursing Facilities' Employment of
                                 Individuals With Criminal Convictions" (OEI-07-09-00110)


                      Thank you for the opportunity 10 review and comment on the subject OIG draft report. The OIG's
                      study focused on determining whether and to what extent nursing facilities employed individuals
                      with criminal convictions. During this study, the OIG:

                             • 	 Found almost all nursing facilities employed one or more individuals with at least one
                                 criminal conviction.

                             • 	 Discovered that despite the lack of a Federal requirement for nursing facilities to conduct
                                 criminal background checks, most States required and/or nursing facilities reported
                                 conducting some type of background check.

                      In its report, OIG made recommendations to the Secretary of Health and Human Services (HHS) and
                      the Administrator of the Centers for Medicare & Medicaid Services (eMS). In making these
                      recommendations, OIG took into consideration the Patient Protection and Affordable Care Act
                      (P.L.111-148) provision that the HHS Secretary must implement a nationwide grant program for
                      States to conduct national and statewide criminal background checks for direct patient access
                      employees of nursing facilities and other providers. Our response to these recommendations is stated
                      below.

                      OIG Recommendation

                           To develop background check procedures and ensure that States conduct background checks
                          consistently, eMS should clearly define the employee classifications that are direct patient access
                          employees.




               OEI·07·09·00110               NURSING FACILITIES' EMPLOYMENT OF INDIVIDUALS WITH CRIMINAL CONVICTIONS                              25
A P P E N D                     I X             ~            E




 O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   26
       A C K N O W L E D G M E N T S

                               This report was prepared under the direction of Brian T. Pattison,
                               Regional Inspector General for Evaluation and Inspections in the
                               Kansas City regional office, and Deborah Walden, Deputy Regional
                               Inspector General.

                               Tricia Fields served as the team leader for this study. Other principal
                               Office of Evaluation and Inspections staff from the Kansas City regional
                               office who contributed to the report include LCDR Mike Garner, Rae
                               Hutchison, and Michala Walker; central office staff who contributed
                               include Kevin Farber, Jennifer Jones, and Sandy Khoury.




O E I - 0 7 - 0 9 - 0 0 11 0   N U R S I N G FA C I L I T I E S ’ E M P L O Y M E N T   OF   INDIVIDUALS WITH CRIMINAL CONVICTIONS   27
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
